No. 20-7846
INTHE

~upreme ([ourt of tbe Wniteb ~tateg
ANGEL ORTIZ,
Petitioner,
V.

DENNIS BRESLIN, Superintendent,
Queensboro Correctional Facility, et al.,
Respondents.

CERTIFICATE OF SERVICE
Brian D. Ginsberg, a member of the bar of this Court, hereby certifies that, on July
28, 2021, I caused to be served (i) three paper copies of the accompanying Brief in
Opposition by overnight delivery by commercial carrier in compliance with U .S.
Sup1·eme Court Rule 29.3 and (ii) one portable document format copy by electronic
mail to the addresses listed below:
Counsel for Petitioner
Lawrence T. Hausman
The Legal Aid Society
199 Water Street, 5th Floor
New York, NY 10038
tha usman@legal-aid.org
646-584-5885
All parties required to be served have been served.
Executed July 28, 2021,

§:;;Gi?.b~rg~

Assistant Solicitor General
New York Office of the Attorney General
The Capitol
Albany, New York 12224

